*

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

'

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Sammy Cano
Reg. No. M40291
Big Muddy River Correctional Center
251 N. Illinois Highway 37
Ina IL 62846

March 24, 2021
In re:

People State of Illinois, respondent, v. Sammy Cano, petitioner.
Leave to appeal, Appellate Court, First District.
126900

The Supreme Court today DENIED the Petition for Leave to Appeal in the above -.
entitled cause.
The mandate of this Court will issue to the Appellate Court on 04/28/2021.

Very truly yours

.

’

’V

Clerk of the Supreme Court

\

APPENDIX B

-f-'

2020 IL App (1st) 182100-U

text of this order rri&y
be changed or corrected
prior ter the time for filing of
a Petition for Rehearing of
the disposition of the same*,'

FIFTH DIVISION
DECEMBER 11, 2020
No. 1-18-2100

NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,

)
)

Plaintiff-Appellee,

)

Appeal from the
Circuit Court of
Cook County.

)

v.

)

No. 12 CR 3246

)

SAMMY CANO

)
)

. Defendant-Appellant.

)

Honorable
Diane G. Cannon,
Judge Presiding.

JUSTICE CUNNINGHAM delivered the judgment of the court.
Presiding Justice Delort and Justice Rochford concurred in the judgment.
ORDER

U1

Held: The defendant’s conviction for predatory criminal sexual assault of a child and
sentence of 18 years’ imprisonment are affirmed; the trial court did not err in
denying the defendant’s motion to quash arrest and suppress evidence; and the trial
court, conducted a proper Krankel inquiry.

12

Following a jury trial in the circuit court of Cook County, the defendant-appellant, Sammy

Cano, was convicted of predatory criminal sexual assault of a child and sentenced to 18 years’
imprisonment. The defendant now appeals. For the following reasons, we affirm the judgment of
the circuit court of Cook County.

1-18-2100

T3'
14

“BACKGROUND" "
In 2012, the State charged the defendant with predatory criminal sexual assault of a child

and aggravated sexual abuse for an incident that occurred in 2002 with his female cousin, J.G
who was six years old at the time. Prior to trial, the defendant filed a motion to quash arrest and
suppress evidence on the basis that the police did not have reasonable suspicion to stop him and
subsequently arrest him.

15
16

Motion to Quash Hearing
■ At a hearing on the motion, the defendant testified1 that on January 17, 2012, he went to

Home Depot to buy a sponge. When he exited the store, he saw a group of five or six men standing
outside. He was familiar with the men and knew they were standing outside the store to look for
work. The defendant admitted that he had stood outside Home Depot and approached cars to solicit
work before, but he was not doing so on that day, although he did join the group to chat with the
other men.
17

The defendant testified that he was preparing to say'goodbye to the other men and head to

-his-j0b-whett4wo^©li«e=©ffieer-s-«pproaehedThe-gr©upT-Gn:eLdf-the-poHee-offieers-began-speaking
in Spanish and asked for the defendant’s identification. According to the defendant, he did not feel
free to leave and he handed over his identification card with his name, Sammy Cano, on it. The
defendant denied providing the police officers with a false name or false date of birth. The police
officers then placed the defendant in handcuffs, searched him, and took him to the police station.

18

Chicago Police Officer Dennis Conway testified that, on January 17, 2012, he and his

partner traveled to the parking lot of Home Depot to respond to “numerous complaints of loitering”

'The defendant testified at the motion to quash hearing and at the trial through a Spanish
interpreter.

-2-

1-18-2100
that had been filed in the previous six months; although there had not been a complaint for anything
in particular on that day. The two officers saw the defendant approach several different cars in the
Home Depot parking lot. They approached the defendant’s group and Officer Conway’s partner
began speaking to them in Spanish. Officer Conway testified that the purpose of approaching the
defendant’s group was “[j]ust a general field interview.”
H9

Detective Conway’s partner asked the defendant for his name and date of birth. Detective

Conway testified that the defendant gave them the same name of “Sammy Lopez” twice, as well
as two different dates of birth. The police officers ran the name “Sammy Lopez” with both dates
of birth through the computer in their police car but “[t]hey didn’t come back to any individual.”
The officers then placed the defendant into custody for obstructing identification. The defendant
was subsequently searched and an identification document with the name “Sammy Cano” was
recovered from him. The officers ran the name “Sammy Cano,” which revealed an. active
investigative alert. Detective Conway explained that “[a]n investigative alert is an alert issued
usually by the detectives when they would like to speak to an individual in regards to a crime.”
H 10

Chicago Police Detective Manuel De La Torre testified that he interviewed the defendant

later that evening after Officer Conway and his partner had brought him to the police station. The
defendant then gave an inculpatory statement. Detective Manuel De La Torre testified that the
investigative alert for the defendant had been created based on allegations of sexual abuse by the
defendant’s younger cousin, J.G. He did not know when the investigative alert was submitted and
did not testify to the alert’s contents.
U 11

At the conclusion of the hearing, the defendant argued that the police officers were not

investigating a crime when they stopped him and asked his name. He averred that this meant he

-3 -

1

io oi nn

tad ^ot-beenie^llyidetafneidjwdTnlumrirwas^m^arCTiffie fOT Mm' to giWTh^joori^e officers ¥
false name. The defendant argued that, consequently, his subsequent arrest for obstructing
identification and the inculpatory statement he provided at the police station were improper and
should be suppressed.
H 12

Before the State could counter, the trial court rejected the defendant’s argument. The trial

court stated:
“In this case Officer Conway testified that he saw a crime. The defendant
and his friends were soliciting business in the Home Depot parking lot. I believe he
saw what he saw. [The defendant] said he was out there with friends who stopped
cars and looked for work. Admirable but *** Home Depot did not appreciate it. It
is trespassing. It is illegal solicitation of business. [The police officers] had a right,
maybe not to throw them all in jail, but to at least approach and say what are you
guys doing here and what are your names. [The defendant] gave them two separate
names and two separate dates of birth, and they had a right to arrest him.
^Fhereaifer—the-mvestig-ative-alert-'p)opped“Up;-They-have-to-ToHow-police
procedure and send him on to the detective. Does that mean automatic charges? No.
But they passed him on to the detective who issued the investigative alert.”
The trial court accordingly denied the defendant’s motion to quash arrest and suppress evidence.
H 13

The defendant filed a motion to reconsider, which, the trial court denied. In so ruling, the

trial court stated that, based on the totality of the circumstances, the police officers had a right to
approach the defendant and inquire as to what he was doing in the Home Depot parking lot. The
trial court further noted that the defendant was'only detained very briefly before he gave a false

-4-

1-18-2100
name, and “the investigation grew from there.”
114

Trial

115- A jury trial commenced. J.G.-,' who was 18 years old at the time of trial, testified. She
testified that in 2002, she was six years old and lived in an apartment with her family. Her older
cousin, Dany, lived in the same building with her three children, including her oldest daughter,
G.G., who was four years old at the time. J.G. went to Dany’s apartment five days a week, before
and after school, while her mother was working. The defendant is Dany’s brother, and he also
spent time at Dany’s apartment in 2002. The defendant was 28 years old at the time.
116

J.G. testified that one day in 2002, she was in the living room of Dany’s apartment. The

defendant and two of Dany’s children were also there, but J.G. could not remember if Dany was
home at the time. The defendant called J.G. and G.G. into the bedroom that was just off the living
room. Once the two girls were inside the bedroom, the defendant closed the door and took them
behind a bunk bed. He made J.G. lay down on the floor and he pulled down her underwear. He
then “used his tongue to lick between [her] lips of [her] vagina” for a couple of minutes. She felt
uncomfortable and tried to pull away from the defendant. Afterwards, she did not tell anyone about
the incident because she felt scared and thought she had done something wrong.
117

Two years later, in 2004, J.G: was eight years old and told her teacher what had happened

with the defendant. The school called J.G.’s mother, who picked up J.G. and brought her home.
There, J.G. told her mother that the defendant had touched her vagina with his .fingers. She told
her mother that he had used his fingers and not his tongue because she was “still uncomfortable”
and was scared that she did something wrong. She testified at trial that the defendant never touched
her vagina with his fingers, only his tongue. After she told her mother about the incident, they

-5-

f

1-18-2100
notified the police and she never saw the defendant again.
18

In January 2012,.J.G. was sixteen years old and was notified by detectives to come speak

with them at the Chicago Children’s Advocacy Center (CAC). She spoke with a detective and an
assistant state’s attorney and told them that the defendant used his tongue to touch her vagina in
2002. J.G. testified that she felt “more comfortable” telling them the truth about what happened
i

because she was older and “understood what really happened.”
If 19

On cross-examination, J.G. testified that she could not remember if Dany ever left her and

the other children alone with the defendant. When the defendant brought her and G.G. into the
bedroom and touched her vagina with his tongue, she could mot remember if the defendant also
interacted with G.G. in any way. She recalled speaking with an investigator from the Department
of Children and Family Services (DCFS) in 2004 and. telling him that the defendant had also
touched G.G. at the same time. J.G. further stated that, in 2004, she told her mother that’ the
defendant had threatened her but then told the DCFS investigator that the defendant did not
threaten her.
c 20

Gloria-G.. JXrT’s motherrtestifiedl:Karih2J)I}4T2he received a call ffomlhe social worker

at J.G.’s school. Gloria.picked up J.G., who was eight years old at the time, and brought her home.
At home, J.G. told Gloria that the defendant had touched her “pee-pee,” which Gloria understood
to mean her vagina. J.G. told Gloria that the incident had occurred when she was six years old in
the bedroom at Dany’s apartment while Dany and her children were home. Gloria asked J.G. why
she never said anything before, and J.G. told her that the defendant had threatened to harm Gloria
if she told anyone. Gloria then took J.G. to DCFS where she was examined by a doctor. On crossexamination, Gloria testified that J.G. also told her that the defendant “had done something

-6-

■

1-18-2100
similar” to G.G.
f 21

Julia Camacho Monzon testified that she works for DCFS, specifically at the CAC. In April

2004, she was a child abuse investigator and was assigned to J.G.’s case. J.G. was interviewed by
Emily Nunez, a forensic interviewer. Ms. Camacho Monzon observed the interview behind a one­
way glass wall, along with Assistant State’s Attorney Alvin Renteria and Detective Margaret
Engstrom.
1 22

At the beginning of the interview, Ms. Nunez conducted a test to ensure that J.G. was able

to understand the difference between a truth and a lie. Ms. Camacho Monzon testified that, during
the interview, J.G. told Ms. Nunez that the defendant had “touched her on her private part.” J.G.
told Ms. Nunez that the defendant had called.her and G.G. into the bedroom and J.G. thought he
was going to give them money; But instead, the defendant closed the bedroom door, took J.G.
behind the bed, and touched “her front part with his hands and nails.” Ms. Camacho Monzon
stated:
“[Ms. Nunez] asked [J.G.] what part was that and she kind of pointed to it
and she asked her what the name was and she said a name but I can’t remember it
right now but she asked her, well, what do you use that part for and she said I used
that part to pee.”
J.G. told Ms. Nunez that she was screaming for the defendant to stop while he was touching her.
She also said he did the same thing to G.G. When Ms. Nunez asked J.G. if she had told anyone
else about the incident, J.G. said that the defendant told her she could not tell anyone, and that “she
was afraid because he was a big man and. she was also afraid about her mom getting mad.” Ms.
Camacho Monzon subsequently attempted to locate the defendant to interview him but was unable

-7-

1-18-2100
to find him.
1f23

Sergeant Margaret Engstrom testified that, in 2004, she was working as a detective in the

special investigation unit for sex crimes involving children atthe'CAC. Following J.G.’^interview
with Ms. Nunez, Sergeant Engstrom searched for the defendant. She looked for him at three or
four known addresses, but was never able to locate him. Sergeant Engstrom did make contact with
his sister, Dany, though, in April 2004. Dany told Sergeant Engstrom that she had not seen the
defendant since November 2003 and did not give her any other information. Sergeant Engstrom
then entered an investigative alert for the defendant.
If 24

Chicago Police Officer Rogelio Ocon testified that he was working on January 12, 2017,

with his partner, Officer Conway. At approximately 10:45 a.m., they drove to the Home Depot
parking lot and saw the defendant. Officer Ocon testified that he stopped the defendant for a field
interview and asked him for his identification. Officer Ocon asked the defendant his name and date
of birth, to which he provided “Sammy Lopez” with a date of birth of September 4, 1974. Officer
Ocon explained: “We have a computer that we have access to in the car. We ran the name, and
nothing came back.^hey again^kMHKe~defehdantTof~his name and date of'hirflf anH thp
defendant again gave the name Sammy Lopez but with a date of birth of September 5, 1974.
Officer Ocon then placed the defendant in custody and ran the name with the second date of birth.
Nothing came back. After the defendant was in custody, the police officers found an identification
document on the defendant which stated that his name is Sammy Cano with a date of birth of
September 5, 1973. They ran that information in their system and learned that the defendant had
an investigative alert. They then took the defendant to the police station and notified the detective
associated with the investigative alert.

-8-

1-18-2100
Detective De La Torre testified that he is assigned to the special investigations unit which
investigates criminal sexual abuse of children. On January 17, 2012, he was assigned to an
investigative alert regarding the defendant. That evening, after the defendant was brought into the
police station, Detective De La Torre mirandized and interviewed him with another detective
present. Detective De La Torre told the defendant that they were investigating some allegations
against him. The defendant responded that he was aware of the allegations through a family
member. Detective De La Torre testified that he mentioned J.G.’s name but did not give the
defendant any specifics of the allegations. In response, the defendant said that about ten years
prior, he regularly visited his sister’s apartment and would play with her children, along with J.G.
The defendant continued talking. Detective De La Torre testified: “He said that at one point, he
was playing with [J.G.], that he took her clothes off, and that he placed his tongue in between her
vagina lips and kissed it.”
25

On cross-examination, Detective De La Torre testified that his interview with the defendant

was not recorded and the defendant did not give a handwritten statement. Detective De La Torre
further testified that the defendant did not tell him that J.G. screamed when he touched her and did
not state that he threatened J.G. or her mother. The. defendant did not tell Detective De La Torre
that he used his fingers or fingernails to touch J.G., The defendant also said that Dany and G.G.
were present in the apartment at the time.
26

The State rested. The defendant moved for a directed verdict, which the trial court denied.

27

G.G. testified on behalf of the defendant. She stated that she was 16 years old at the time

of trial and that the defendant is her uncle. G.G. recalled that when she was around four and five
years old, J.G. would come over to her house often and play with her and her siblings. Whenever

-9-

.

1-18-2100
JG. came over, G.G.’s mother, Dany, would watch them. G.G. had no recollection of ever being
left alone with the defendant. She further had no recollection of the defendant ever touching her
“private parts, ” When asked if she had any recollection of J.G. telling her that the defendant-had
touched her private parts, G.G. responded, “No.” She also never saw the defendant touch J.G. and
never heard J.G. scream because the defendant was touching her:
U 28

Dany Cano, the defendant’s sister, testified next. In 2002, she babysat J.G. after school.

The defendant sometimes visited them, but Dany never left J.G. or any of her children alone with
the defendant. She testified that the bedroom was right off the living room, and if someone had
been screaming in the bedroom, she would have heard it from the living room.
1f 29

The defendant testified in his defense. He testified that at the time of trial, he was 39 years

old, had been married for six years, and had two young children. He denied ever touching J.G.’s
vagina with his tongue, fingers, or fingernails. He denied ever touching J.G. in any way that she
did not want him to. On cross-examination, the defendant denied telling Detective De La Torre
that he had put his tongue on J.G.’s vagina. He further testified that in 2002, he was never alone
with JIG.
1 30

At the conclusion of the trial, the jury found the defendant guilty of predatory criminal

sexual assault of a child and aggravated sexual abuse. The trial court subsequently merged the
aggravated sexual abuse count into the predatory criminal sexual assault of a child count.
H31

Posttrial Motion

1 32 ' Following the guilty verdict, the defendant filed a pro se posttrial motion alleging, inter
alia, that he received ineffective assistance of counsel. The trial court asked the defendant to
expound on his claim of ineffective assistance of counsel, and the following exchange ensued:

- 10-

1-18-2100
“THE DEFENDANT: He was not — he was not pending. He didn’t defend
me the way he should have.
THE COURT: How so, sir?
THE DEFENDANT: In regards to the police officer, the officer said that I
had said some things to him; that I was only supposed to say yes and no without
going into any details of other things where I could say and explain things that were
in my favor, too, .
THE COURT: You had an opportunity to testify, sir. I questioned you at
length as to whether or not you wanted to testify. You indicated you did not. Oh,
you did testify. You had a right to testify and you did testify.
In terms of what the officers had to say, the officers were cross examined
as to their testimony, vigorous cross examination of all the witnesses by your
attorney. He is not responsible for the words that come out of the witnesses’ mouth.
Any impeachment or, you know,; possible mistakes were brought out by your
attorney.”
The defendant’s trial counsel, who was privately retained, then moved to withdraw from the case
and have a public defender appointed. The trial court denied counsel’s motion to withdraw, noting
that he had been on the case for years and that the defendant’s issue was with what Detective De
La Torre had said during his testimony. The defendant’s trial counsel nonetheless insisted that the
defendant have an opportunity to explore his ineffective assistance of counsel claim with new
counsel. The trial court responded: “He can always explore your ineffectiveness to a higher court.
If someone doesn’t like the way the jury returns a verdict, it doesn’t go away. The; verdict was

- 11 -

1-18-2100
Based on thelaw and evidence.” The trial court concluded:
Every right of the defendant has been protected through representation by
able-bodied attorneys: for over a year, over the years. Just because he didn’t like
, *** the answers a police officer gave at his trial are not a basis not only for new
trial but for you to attempt to leave prior to sentencing and argue the motion that
you have prepared.”

If 33
1f 34

Sentencing
The case proceeded to the sentencing hearing. The State introduced a victim impact

statement from J.G., which read, in part:
“[T]his whole case has changed my life. *** I did not grow up as a normal
child like others did like those girls who had sleepovers and were able to go to their
friends’ house. I never had that because my parents were so afraid that something
would happen to me. I just thought that this never would have happened to me.
I always say things happen for a reason and it [sic] they do, but I will never
wish this

DTT Tny~worst

enemy. T~hadG:omarry thiTwffrrme~fof~T2 years. The

flashbacks of what happened will never go away. I will have to carry that with me
for the rest of my life.”
The State requested a harsh sentence based on the psychological impact on J.G., the seriousness
of the offense, and the possibility of recidivism.
1 35

In mitigation, the defendant argued that for the past decade, he had been living a productive

life .and had “zero contact with law enforcement.” He introduced letters from his wife, mother, and
sister describing the defendant as an active father who supported his household. He also introduced

- 12-

1-18-2100
letters from his friends in Alcoholics Anonymous noting that the defendant had become a sober
and productive member of society.
K 36 . In sentencing the defendant, the trial court stated it believed that the defendant did want to
change his ways, but that “the court [was] left with a hard, cold fact that [he] committed a sexual
act upon [his] six-year-old [relative], someone who she trusted.” The trial court then said, “for the
protection of society,” it was sentencing the defendant to 18 years’ imprisonment. This appeal
followed.
137
1 38

ANALYSIS
We first consider whether we have jurisdiction to hear this appeal. The trial court sentenced

the defendant on October 4, 2013. At that time, the defendant indicated his desire to appeal and
the trial court appointed the Office of the State Appellate Defender to represent him on appeal.
However, the defendant’s trial counsel never filed a notice of appeal. On September 20, 2017, the
defendant filed a pro se postconviction petition alleging that his trial counsel was ineffective for
failing to perfect his appeal. That petition advanced to the second stage of postconviction
proceedings, where, on May 21, 2018, the parties agreed that trial counsel was ineffective for
failing to perfect the direct appeal. The trial court accordingly granted the defendant leave to file
a late notice of appeal from the October 4, 2013, judgment. Therefore, we have jurisdiction to
consider the merits of this appeal. See People v. Ross, 229 Ill. 2d 255, 322 (2008) (when a
postconviction petitioner demonstrates that counsel was ineffective for failing to file a notice of
appeal, the trial court may allow the petitioner leave to file a late notice of appeal).
If 39

The defendant presents the following issues on appeal: (1) whether the State proved the

defendant guilty beyond a reasonable doubt of predatory criminal sexual assault of a child; (2)

- 13 -

1-18-2100
whether the trial court erred in denying the defendant’s motion to quash arrest and suppress
evidence; (3) whether the trial court conducted a proper Krankel inquiry; and (4) whether the
defendant’s sentence, of 18 years’ imprisonment is excessive. We take each issue in turn. _______
140

The defendant first argues that the State failed to prove him guilty of predatory criminal

sexual assault of a child. Specifically, he claims that the evidence was insufficient to-convict him
where J.G. originally said that the defendant touched her vagina with his fingers but later said that
he touched her vagina with his tongue. The defendant points to other inconsistencies in J.G.’s
statements, such as whether Dany was in the apartment at' the time, whether the defendant also
touched G.G., and whether the defendant threatened J.G. He further stresses that J.G.’s testimony
is contradicted by G.G.’s testimony and is not supported by any physical evidence. The defendant
also claims that Detective De La Torre’s testimony about the defendant’s inculpatory statement is
incredible because he did not record his interview with the defendant.
1f41

The State has the burden of proving beyond a reasonable doubt each element of an offense.

People v. Gray, 2017 IL 120958, f 35. When a defendant challenges the sufficiency of the
evidence, a reviewing court must determine whether, after viewing thp. nviHpnee in the light most
favorable to the State, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt. Id. In doing so, “a court of review will not substitute its judgment for
that of the trier of fact on questions involving the weight of the evidence or the credibility of the
witnesses.” Id. A criminal conviction will not be reversed for insufficient evidence unless the
evidence is so unreasonable, improbable, or unsatisfactory that it justifies a reasonable doubt of
the defendant’s guilt. Id.
If 42 ■ The operative offense is predatory criminal sexual assault of a child (720 ILCS 5/12—

- 14-

1-18-2100
14.1(a)(1) (2002)). To sustain a conviction for predatory criminal sexual assault of a child, the
State must establish, beyond a reasonable doubt that the defendant, who was 17 years of age or
older, committed an act of sexual penetration upon the victim, who was younger than 1.3 years old
at the time the act was committed. Id. “Sexual penetration” means “any contact, however slight,
between the sex organ or anus of one person by an object, the sex organ, mouth, or anus of another
person.” 720 ILCS 5/12-12(f) (2002).
1f 43

It is undisputed that, in 2002, the defendant was over 17 years old and J;G. was under 13

years old. However, the defendant contends that the State failed to establish that sexual penetration
occurred because of the discrepancies in J.G. ’s statements regarding whether he touched her vagina
with his fingers or his tongue. Yet, J.G. was unequivocal in her testimony at trial that the defendant
touched her vagina with his tongue, and the unequivocal testimony of a single witness is sufficient
to convict. People v. Wells, 2019 XL App (1st) 163247, ]f 23. The fact that J.G. initially stated that
the defendant touched her vagina with his fingers instead of his tongue does not take away from
her testimony as a whole. As this court has previously said:
ct i

[A] complainant’s testimony need not be unimpeached, uncontradicted,

crystal clear, or perfect in order to sustain a conviction for sexual abuse. [Citations.]
Where minor inconsistencies or discrepancies exist in a complainant’s testimony
but do not detract from the reasonableness of her story as a whole, the
complainant’s testimony may be found to be adequate to support a conviction for
sexual abuse. [Citations.]’ ” People v. Garcia, 2012 IL App (1st) 103590,

84

(quoting People v. Soler, 228 Ill. App. 3d 183, 200 (1992)).
If 44

Further, J.G.’s testimony was corroborated by Detective De La Torre’s testimony that the

- 15 -

1-18-2100
defendant told him that he touched J.G.’s vagina with his tongue. The defendant takes issue with
the fact that Detective De La Torre did not record the defendant’s statement. Importantly, the
defendant does not challenge the admissibility of Detective De La Torre’s testimony; he merely
argues, that his testimony is incredible. But it is the responsibility of the trier of fact to determine
the witnesses’ credibility and the weight to be given to their testimony. People v. Green, 2017 IL
App (1st) 152513, f 102. The jury in this case found J.G.’s testimony credible notwithstanding the
discrepancies in her statements. They also found Detective De La Torre’s testimony credible
notwithstanding the fact that he did not record the defendant’s statement. The jury clearly gave
Detective De La Torre’s and J.G.’s testimony more weight than the defendant’s and G.G.’s
testimony. We find no reason to disturb that determination. Set id. (on the issue of credibility, a
reviewing court will not substitute its judgment for that of a jury).
1f 45

Contrary to the defendant’s argument, it is irrelevant;that J.G.’s testimony is not supported

by any physical evidence. See People v. Morgan, 149 Ill. App. 3d 733, 738 (1986) (it is not
necessary that corroborating medical evidence be admitted to prove that penetration did occur).
Accordingly, viewing the evidence-ihTKeTigHt most favorable to tHFState. we find that thAState
proved the defendant guilty beyond a reasonable doubt, of predatory criminal sexual assault of a
child and we affirm his conviction for that offense.
146 ! The defendant next argues that the trial court should have granted his motion to quash arrest
and suppress evidence because his seizure by the police officers was unconstitutional. He claims
that the police officers saw him and his friends just standing in the parking lot of the Home Depot
store and approaching cars, which was an insufficient reason to stop and detain him. He further
claims that even if he gave the police a false name and date of birth, that was not a crime because

- 16-

1-18-2100
he was not lawfully detained at the time. The defendant accordingly argues that the subsequent
statement he gave to Detective De La Torre was “the fruit of [his] unconstitutional arrest” and
should have been suppressed.
47

In reviewing a trial court’s ruling on a motion to quash arrest and suppress evidence, this

court applies a two-part standard of review.People v. Dailey, 2018 IL App (1st) 152882, ^ 16.
“We accord great deference to the trial court’s factual findings and will reverse them only if they
are against the manifest weight of the evidence; however, we review the trial court’s ultimate
ruling on the motion de novo.” Id.
48

The defendant’s motion to quash arrest and suppress evidence argued that the police did

not have enough reasonable suspicion to stop him and subsequently arrest him. The United States
Constitution and the Illinois Constitution protect individuals from unreasonable searches and
seizures. U.S. Const., amend. IV; dll. Const. 1970, art. I, § 6. “[T]he touchstone of the fourth
amendment is reasonableness, which is measured objectively by examining the totality of the
circumstances surrounding a police officer’s encounter with a citizen.” People v. Lake, 2015 IL
App (4th) 130072, ^ 28. It is well settled that not every encounter between the police and a private
citizen results in a seizure. Id.

35. Encounters between police and citizens are divided into three

tiers: (1) arrests, which must be supported by probable cause; (2) brief investigative detentions,
commonly referred to as “Terry stops,” which must be supported by reasonable, articulable
suspicion of criminal activity; and (3) consensual encounters, which involve no coercion or
detention and thus do not implicate the fourth amendment. Id. Pursuant to a Terry stop, “a police
officer may conduct a brief, investigatory stop of a person where the officer reasonably believes
that the person has committed, or is about to, commit a crime.” People v. Timmsen, 2016 IL

- 17-

1-18-2100
118181, f 9. “Reasonable, articulable suspicion” is a less demanding standard than probable cause,
but an officer’s suspicion must still amount to more than just a “hunch” of criminal activity. Id.
When this court evaluates the validity of a Terry stop, we consider the totality of the circumstances
surrounding the stop. Id.
If 49

During the hearing on the defendant’s motion, Officer Conway testified that he and his

partner, Officer OcOn, went to the parking lot of the Home Depot store because of “numerous
complaints of loitering” that had been filed with the police in the previous six months. Upon their
arrival, they saw the defendant standing in the parking lot and approaching various cars. The
defendant himself testified that the group of men he was standing with were soliciting work in the
parking lot. Looking at the totality of the circumstances, the police officers had reasonable,
articulable suspicion that the defendant was engaging in criminal activity, specifically trespassing
and/or soliciting unlawful business. In turn, it was reasonable for the police officers to briefly stop
the defendant and ask him some preliminary questions.
If 50

Because the defendant was then lawfully detained pursuant to a Terry stop, it was illegal

-for-him-to provide-a-false-nanae and a false date of birth- See 72R ILCS 5/31-4.5(a)(2) (West 2012)
(“A person commits the offense of obstructing .identification when he or she intentionally or
knowingly furnishes a false or fictitious name, residence address, or date of birth to a peace officer
who has.*** lawfully detained the person”). So once the defendant provided the police officers
with a false name and a false date .of birth, the police officers.had enough probable cause to arrest
the defendant for obstructing identification. People v. Grant, 2013 IL 112734, | 11 (“Probable
cause to arrest exists when the facts known to the officer at the time of the arrest are sufficient to
lead a .reasonably captious person to believe that the arrestee has committed a crime.”). The

- 18 -

1-18-2100
defendant’s proper arrest ultimately led the police officers to discover the defendant’s investigative
alert and bring him to the police station to meet with Detective De-La Torre, where he gave an
inculpatory statement. Consequently, there was no justification for suppressing the defendant’s
statement to Detective De La Torre. We therefore hold that the trial court did not err in denying
the defendant’s motion to quash arrest and suppress evidence.
51

Next, the defendant argues that the trial court should have provided him with new counsel

to assess his pro se posttrial claim of ineffective assistance of counsel. He argues that the trial court
did not conduct a proper Krankel inquiry regarding his ineffective assistance claims, but instead
merely asked “just a few cursory questions.” The defendant avers: “Had the court conducted [a
proper Krankel] inquiry, it would have learned that new counsel was needed to independently
assess and present [the defendant’s] ineffectiveness claims.” He asks us to remand the case back
to the trial court with instructions to appoint new counsel to assess his ineffective assistance claims.
f 52

A pro se posttrial claim alleging ineffective assistance of counsel is governed by the

common law procedure developed ;by our supreme court in People v. Krankel, 102 Ill. 2d 181
(1984). See People v. Jolly, 2014 IL 117142, ^f .29. The trial court is not required to automatically
appoint new counsel when a defendant raises an ineffective assistance of counsel claim. People v.
Lawson, 2019 IL App (4th) 180452, f 40. Instead, when a defendant brings a pro se posttrial
petition claiming that trial counsel was ineffective, the trial court must conduct some type of
inquiry, known as a Krankel inquiry, into the underlying factual basis of the defendant’s claim of
ineffectiveness. People v. Ayres, 2017IL 120071, f 11. If, based on the Krankel inquiry, the. trial
court determines that the defendant’s claim lacks merit or pertains only to matters of trial strategy,
then the court need not appoint new counsel. Id. However, if the defendant’s allegations show

- 19-

1-18-2100
possible neglect of the defendant’s case, then the trial court should appoint new counsel to argue
the defendant’s claim. People v. Boose, 2014 IL App (2d) 130810, ^ 27. We review de novo
whether the trial court properly conducted a preliminary. Krankel inquiry. People v. Jackson, 2016
ILApp (1st) 133741468.
If 53

'

The record in this case reflects that the trial court carefully considered the defendant’s

allegations. When the defendant alleged that he received ineffective assistance of counsel because
his trial counsel “didn’t defend [him] the way he should have,” the trial court asked the defendant
to expound on that allegation in more detail. And when it became clear that the defendant’s issue
with his defense counsel, revolved around the fact that he did not like what Detective De La To rre
testified to, the trial court responded by noting that trial counsel had conducted a vigorous cross
examination of Detective De La Torre and that his trial counsel is “not responsible for the words
that come out of the witnesses’ mouth.” Once the trial court determined that Detective De La
Torres’ testimony was the main issue in the defendant’s claim of ineffective assistance of counsel,
this was a sufficient inquiry to determine that the defendant’s allegations were unfounded. See
207—I4lT"2d~68^7-8-{-2-0Q3)-(-a-br-ief^diseussion-betweenAheArial"court~anri"the~
defendant may be sufficient for a Krankel inquiry).
If 54

The-trial court consequently found the defendant’s claims to be baseless and determined

that new counsel was not needed to assess them. This Was a proper determination based on the
totality of the circumstances. .Simply because ihe defendant did not like the outcome of the trial
does not mean that he received ineffective assistance of ermnsel We accnrmnrrh/
-----

_

— —

■ ■

w

Wil

•

J. VI V V L

tiiv

defendant’s argument that the trial court did not conduct a proper Krankel inquiry.
If 55

Finally, the defendant argues that his sentence of 18 years’ imprisonment is excessive.

-20-

1-18-2100
Specifically, he claims that a sentence that is “three times the minimum term” is excessive where,
in the decade since, the incident with J.G., he did not commit other crimes and he established
himself as a productive member of society. He asks us to reduce his sentence.
56

We afford great deference to the trial court’s sentencing decision, as the court is in the best

position to weigh the relevant sentencing factors which include the defendant’s demeanor, criminal
history, and social environment, as well as the nature and circumstances of the crime. People v.
Wyma, 2020 IL App (1st) 170786, If 93. A sentence that falls within statutory guidelines is
presumptively proper and will not be disturbed absent an abuse of discretion. People v. Bridges,
2020 IL App (1st) 170129, U 37. An abuse of discretion occurs where the sentence is “at variance
with the purpose and spirit of the law or manifestly disproportionate to the nature of the offense.”
4

People v. Himber, 2020 IL App (1st) 162182,
U 57

59.

The sentencing range for the crime for which the defendant was convicted was 6 to 30

years. Thus, his sentence of 18 years, falls squarely within that range and is therefore presumed to
be proper. Notwithstanding, the record §hows that, the trial court carefully considered all the
mitigating factors and noted that the, defendant did want to change for the better. The record also
shows, however, that the trial court gave greater weight to the seriousness of the crime, which is
the most important factor. People v. Decatur, 2015 IL App (1st) 130231,

12 (the seriousness of

the crime is the most important factor in determining an appropriate sentence). The trial court’s
sentence is appropriate in light of the heinous nature of this offense, especially considering J.G.’s
victim impact statement in which she described that her life has changed forever because of what
the defendant did to her. The defendant’s preference for a lighter sentence is not a reason to reduce
his sentence. We accordingly affirm the defendant’s sentence of 18 years’ imprisonment.

-21 -

«r

1-18-2100
ZCwTUClP1'

—s-f

-:f;5 8

"

22;

v.-^:
•1.

CONCLUSION
-

.~rV.-

n

'i.

f~59

For the foregoing reasons, we: affirm the judgment of the circuit court of Cook- County

-Ifl&O

Affirmed

:

a.
*v

\
■>.

€
0

22

